      Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy


                 Before the

Subcommittee on Environment and the Economy

                   of the

     Committee on Energy and Commerce

        U.S. House of Representatives




                                 FOR RELEASE ON DELIVERY
                                                      1:00 PM
                                       Wednesday, June 1, 2011
Mr. Chairman and members of the Subcommittee, I am pleased to be here at your request to

testify on matters relating to the Department of Energy’s Yucca Mountain Project.



As you know, issues surrounding the termination of the Project have been widely publicized.

They directly impact the Department’s responsibilities to manage legacy waste generated from

nuclear weapons production and to accept and dispose of spent nuclear fuel emanating from

commercial nuclear reactors.



The United States has invested nearly 30 years of effort and expended over $15 billion to

develop a nuclear waste repository. Nearly $9 billion of these expenditures was funded by fees

paid into the Nuclear Waste Fund by users of nuclear-powered electricity and the balance by the

Department and the Nation’s taxpayers. Establishing a secure and scientifically sound method

for storage and disposal of high-level nuclear waste and spent nuclear fuel is critical to ongoing

environmental remediation efforts at many Department of Energy legacy sites and to the

Nation’s nuclear power industry.



Current Status of Repository Development

As you are aware, the Department’s Fiscal Year 2011 budget included no funding for the Yucca

Mountain Project. Additionally, the Department disbanded the Office of Civilian Radioactive

Waste Management, whose programmatic mission was the management and disposal of high-

level radioactive waste and spent nuclear fuel. Virtually all personal property and facilities

relating to the Project have been either been disposed of or reassigned, and the site is in “cold

standby” status.



                                                  1
On January 29, 2010, the Department announced the formation of a Blue Ribbon Commission on

America’s Nuclear Future to conduct a comprehensive review of policies for managing the back

end of the nuclear fuel cycle, including all alternatives for the storage, processing, and disposal

of civilian and defense nuclear waste. On May 13, 2011, the Commission issued draft

recommendations associated with developing a safe, long-term solution to managing nuclear

waste.



Office of Inspector General Reviews Relating to the Yucca Mountain Project

Over the past several years, the Office of Inspector General has completed a substantial amount

of work related to the Yucca Mountain Project. A complete listing of the relevant Inspector

General reports is included in the attachment at the end of my testimony. Specifically, we

reported on:

           Issues with the implementation of a Corrective Action Program to identify and

           resolve all potential conditions adverse to quality that could affect the license

           application for the Project. We found that conditions continued to occur after

           management reported that appropriate corrective actions had been taken;

           The disposition of excess property for which the Government received no monetary

           benefit. The Department gave a contractor title to approximately 9,000 metric tons of

           property and derived no benefit from the sale of potentially reusable property, such as

           a drilling rig, diagnostic trailers, and several tons of iron and steel;

           Problems relating to the development, maintenance, and quality assurance over

           licensing activities and data maintained in the Licensing Support Network;

           The inappropriate usage by the State of Nevada and affected units of local

           government of oversight funds provided by the Department; and,

                                                   2
            Payment by the Department of performance-based incentives to the Yucca Mountain

            Project contractor even though the contractor did not meet performance expectations.



In addition, we have performed several audits that focused on the progress in preparing nuclear

waste from Departmental sites for disposal at Yucca Mountain. Finally, Nuclear Waste Fund

and Project financial issues are regularly included in the scope of financial statement audits

conducted under the auspices of the Office of Inspector General.



Office of Inspector General Reviews Relating to the Closure of the Yucca Mountain Project

Over the last year, the Office of Inspector General has completed work relating to the shutdown

of the Project. Specifically, after the Department announced its decision to terminate the Project,

we reported that a plan to ensure an orderly shutdown had not been developed. Due to the lack

of a formal plan, we outlined a number of lessons learned based on problems we had observed

during prior reviews of other project closure activities. In particular, we pointed out that the

Department should focus on disposing of personal property; maintaining intellectual, scientific,

and technology property; managing the close-out process for prime and sub-contracts; and

administering benefits for contractor employees formerly working at the Project.



Additionally, a recent Office of Inspector General report identified approximately $175 million

in questioned and unresolved costs that the Department needed to address as part of its Yucca

Mountain Project contract close-out effort. Our review determined that a significant amount of

these questioned, unresolved, and potentially unallowable costs had accumulated over a number

of years.




                                                  3
Issues Requiring Continuing Attention

We have repeatedly expressed concern regarding the Department’s activities to ensure the

effective disposal of nuclear waste as part of our annual Management Challenges report to the

Department and Congress. Specific concerns relate to the potential financial and environmental

impacts associated with the termination of the Project.



The Yucca Mountain Project played a central role in the Department’s planned disposal of

significant quantities of high-level waste now in temporary storage or being recovered at sites

including the Savannah River Site in South Carolina, the Oak Ridge Reservation in Tennessee,

and the Hanford Site in Washington. Delays in the opening of Yucca Mountain have, as

demonstrated by a number of financial and performance audits, increased the ultimate cost of

disposal of this waste. It is likely that the closure of the Project will significantly impact the

Department’s future environmental remediation liability, currently estimated to be $250 billion.

We will further evaluate the impact of the closure as part of the ongoing financial statement

work.



Further, unless a repository or other alternative strategy becomes available in the near term, the

Department may miss a number of deadlines that are part of tri-party settlement agreements with

Federal and state regulators. If history is any indication, the Department may be subject to

significant assessments as a result of the missed deadlines. For example, as of

September 30, 2010, more than $800 million had been expended by the Judgment Fund,

administered by the Department of the Treasury, for payments to commercial nuclear waste

producers for delayed acceptance of nuclear waste. Overall, the Department has estimated its

contingent liability for spent nuclear fuel litigation to be approximately $15.4 billion.


                                                   4
In summary, in our judgment, the need to develop a viable, effective, and acceptable path

forward for nuclear waste disposal becomes more challenging day by day. The United States has

announced plans to dismantle a significant part of its nuclear weapons stockpile with the

unavoidable reality of increasing the volume of defense nuclear waste. Further, commercial

nuclear waste, which was to represent 90 percent of the waste stored at Yucca Mountain,

continues to be generated at nuclear power facilities across the Nation. To paraphrase one draft

recommendation from the Subcommittee on Transportation and Storage of the Blue Ribbon

Commission on America’s Nuclear Future, the United States should proceed expeditiously to

develop an integrated, comprehensive plan for managing the back end of the nuclear fuel cycle.



Mr. Chairman, this concludes my statement and I would be pleased to answer any questions you

may have.




                                                5
                                                                                Attachment

                     Department of Energy Office of Inspector General
                        Yucca Mountain Project Relevant Reports

      Title                                           Report Number     Date Issued
1.    Management Challenges at the Department of      IG-0844           2010-11-16
      Energy
2.    Office of Civilian Radioactive Waste            OAS-FS-11-03      2010-11-15
      Management’s Fiscal Year 2010 Financial
      Statement
3.    Resolution of Questioned, Unresolved and        OAS-SR-10-02      2010-07-29
      Potentially Unallowable Costs Incurred in
      Support of the Yucca Mountain Project
4.    Audit Coverage of Cost Allowability for         OAS-V-10-15       2010-07-29
      Bechtel SAIC Company, LLC During Fiscal
      Years 2004 Through 2009 Under Department
      of Energy Contract No. DE-AC28-
      01RW12101
5.    Need for Enhanced Surveillance During the       OAS-SR-10-01      2010-07-21
      Yucca Mountain Project Shut Down
6.    Yucca Mountain Project Purchase Card            INS-O-09-04       2009-08-20
      Programs
7.    Yucca Mountain Project Document                 OAS-M-08-07       2008-04-28
      Suspension
8.    Review of Alleged Conflicts of Interest         IG-0792           2008-04-02
      Involving a Legal Services Contractor for the
      Yucca Mountain Project License Application
9.    Design of the Engineered Barrier System at      OAS-L-07-08       2007-02-27
      the Yucca Mountain Site
10.   Management Challenges at the Department of      IG-0748           2006-12-13
      Energy
11.   The Office of Civilian Radioactive Waste        IG-0736           2006-08-16
      Management’s Corrective Action Program
12.   Management Controls over Cesium and             OAS-M-06-06       2006-08-04
      Strontium Capsule Disposition at the Hanford
      Site
13.   Management of Spent Nuclear Fuel at the         IG-0727           2006-05-12
      Savannah River Site
14.   Allegations Involving False Statements and      I05LV002          2006-04-25
      False Claims at the Yucca Mountain Project
15.   Quality Assurance Weaknesses in the Review      IG-0708           2005-11-09
      of Yucca Mountain Electronic Mail for
      Relevancy to the Licensing Process
16.   Use of Performance Based Incentives by the      IG-0702           2005-09-30
      Office of Civilian Radioactive Waste
      Management



                                               6
                                                                    Attachment (continued)

                     Department of Energy Office of Inspector General
                        Yucca Mountain Project Relevant Reports


      Title                                         Report Number       Date Issued
17.   Use of Oversight Funds by the State of        IG-0696             2005-07-29
      Nevada and Affected Units of Local
      Government
18.   Assessment of Changes to the Internal         OAS-V-05-03         2005-01-31
      Control Structure and their Impact on the
      Allowability of Cost Claimed by and
      Reimbursed to Bechtel SAIC Company, LLC
      Under Department of Energy Contract
      Numbers DE-AC08-01NV12101, and DE-
      AC28-01RW12101
19.   Property Disposals at the Yucca Mountain      IG-0664             2004-09-27
      Project
20.   Management Controls Over the Licensing        OAS-M-04-04         2004-05-20
      Support Network for the Yucca Mountain
      Repository
21.   Oversight Funds Provided to Local             IG-0600             2003-05-23
      Governments in the State of Nevada
22.   State of Nevada Yucca Mountain Oversight      CR-C-02-01          2002-08-22
      Funds for Fiscal Year 2001
23.   Yucca Mountain Surface Facilities             WR-L-02-02          2002-04-11
24.   Review of Alleged Conflicts of Interest       I01IG001            2001-11-13
      Involving a Legal Services Contract for the
      Yucca Mountain Project
25.   Yucca Mountain Project                        I01HQ005            2001-04-23
26.   Management of the Site Characterization       IG-0366             1995-02-15
      Program at Yucca Mountain
27.   TRW Environmental Safety Systems, Inc.’s      CR-L-94-33          1994-09-30
      Disclosure Statement Adequacy and Cost
      Accounting Standards Compliance
28.   Audit of Costs and Management of the Yucca    IG-0351             1994-06-23
      Mountain Project
29.   Follow-up Audit of the Cask Development       IG-0345             1994-03-15
      Program
30.   Assessment of Changes to the Internal         CR-V-94-04          1994-03-01
      Control Structure and their Impact on the
      Allowability of Costs Claimed by and
      Reimbursed to TRW Environmental Safety
      Systems, Inc. Under Department of Energy
      Contract No. DE-AC01-91RW00134
31.   The Office of Civilian Radioactive Waste      WR-L-92-14          1991-12-06
      Management


                                             7
                                                                  Attachment (continued)

                    Department of Energy Office of Inspector General
                       Yucca Mountain Project Relevant Reports


    Title                                         Report Number        Date Issued
32. Credits Due the Department of Energy for      IG-0287              1990-08-08
    Funding High-Level Nuclear Waste
    Management Research and Development
33. The Proposed Maintenance and Operating        CR-LC-89-2           1988-10-28
    Contract for Office of Civilian Radioactive
    Waste Management




                                              8
